                                                                                                           
                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 TH S TREET , R OOM 0429
                                                                            K ANSAS C ITY , MO 64106
March 12, 2012

Report Number: A-07-11-00367

Ms. Suzanne M. Gannon
Executive Director and Chief Financial Officer
MedUS Services, LLC
HealthNow New York, Inc.
257 West Genesee Street
Buffalo, NY 14202

Dear Ms. Gannon:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Pension Costs Claimed for Medicare Durable
Medical Equipment Regional Carrier Reimbursement by HealthNow New York, Inc., for Fiscal
Years 2000 Through 2007. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-11-00367
in all correspondence.

                                             Sincerely,


                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Suzanne M. Gannon

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director and Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
 



    Department of Health and Human Services
                OFFICE OF 

           INSPECTOR GENERAL 




REVIEW OF PENSION COSTS CLAIMED 

 FOR MEDICARE DURABLE MEDICAL 

  EQUIPMENT REGIONAL CARRIER 

       REIMBURSEMENT BY 

   HEALTHNOW NEW YORK, INC.,

        FOR FISCAL YEARS 

      2000 THROUGH 2007 





                           Daniel R. Levinson

                            Inspector General 


                             February 2012 

                             A-07-11-00367 

 



                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
 




                               Notices 

 
 
         THIS REPORT IS AVAILABLE TO THE PUBLIC

                          at http://oig.hhs.gov

     Section 8L of the Inspector General Act, 5 U.S.C. App., requires
     that OIG post its publicly available reports on the OIG Web site.

    OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

     The designation of financial or management practices as questionable,
     a recommendation for the disallowance of costs incurred or claimed,
     and any other conclusions and recommendations in this report
     represent the findings and opinions of OAS. Authorized officials of the
     HHS operating divisions will make final determination on these matters.

 
 


                                  EXECUTIVE SUMMARY 


BACKGROUND 


HealthNow New York, Inc. (HealthNow), administered Medicare Part B and Durable Medical
Equipment Regional Carrier (DMERC) operations under cost reimbursement contracts with the
Centers for Medicare & Medicaid Services (CMS). The DMERC contractual relationship was
terminated on June 30, 2006. The effective closing date for the DMERC Medicare segment was
January 1, 2007.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods. 

OBJECTIVE

Our objective was to determine the allowability of pension costs that HealthNow claimed for
Medicare reimbursement for its DMERC Medicare segment for fiscal years (FY) 2000 through
2007.

SUMMARY OF FINDING

HealthNow did not claim $111,258 of allowable Medicare pension costs on its Final
Administrative Cost Proposals (FACP) for its DMERC Medicare segment for FYs 2000 through
2007. The underclaim primarily occurred because HealthNow did not claim pension costs for
Medicare reimbursement for FY 2003. For FYs 2000 through 2007, HealthNow claimed
pension costs of $1,422,223 for Medicare reimbursement for the DMERC Medicare segment;
however, we determined that the allowable CAS-based pension costs for this segment and during
this period were $1,533,481.

RECOMMENDATION

We recommend that HealthNow revise its DMERC FACPs to claim the additional allowable
DMERC Medicare pension costs of $111,258.

AUDITEE COMMENTS

In written comments on our draft report, HealthNow agreed with our finding. HealthNow also
stated that it will net this recommendation with other amounts due to/from the Federal
Government during its global settlement of outstanding audits. HealthNow’s comments are
included in their entirety as Appendix B.

                                                i
 
 
                                                          TABLE OF CONTENTS 




INTRODUCTION ..................................................... ............................................................... 1 


          BACKGROUND ....... ........... ........ .. .. .......... ..... .... ..... ..... .......... ......................... .............. 1 

              HealthNow New York, Inc ....... ... ........ .. ............................... ............ ................. . 1 

              Medicare Reimbursement of Pension Costs ............................................ ....... .... 1 


          OBJECTIVE, SCOPE, AND METHODOLOGy .......................................................... 1 

               Objective..... ............ .......... .... .. .. ... ....... ....... ..... ..... ............. ... ... ... .. ... .. ... ...... .. ....... 1 

               Scope ........ .... ...... ...... ... ... ..... ...... .. ... ................ .. .. ........ .... ........ .... ...... ... ... .. ..... .... . 2 

               Methodology ................................... ..... ........... ....... .... ... ..... :... ...... .... .... ... ...... ... .. . 2 


FINDING AND RECOMMENDATION............................................................................ .. .. 2 


          FEDERAL REQUIREMENTS ...... .... ............ ....... ........... ...... ........ .................... ... ........ . 3 


          ALLOWABLE PENSION COSTS NOT CLAIMED.. ............ ...... ............. .. ... ............. . 3 


          RECOMMENDATION .............. .... ...... ... ........ ........... ....... .. .... .... ............... .................... 4 


          AUDITEE COMMENTS ...... ...... ............ ........ .. ....... .. .... ...... ... .... ...... ... ... .... ...... .... ..... .. .. 4 


APPENDIXES 


    A: 	 ALLOWABLE DURABLE MEDICAL EQUIPMENT 

         REGIONAL CARRIER MEDICARE PENSION COSTS 

         FOR HEALTHNOW NEW YORK, INC., 

         FOR FISCAL YEARS 2000 THROUGH 2007 


    B: 	 AUDITEE COMMENTS




                                                                               11
                                                INTRODUCTION 


    BACKGROUND

    HcalthNow New York, Inc.

HealthNow New York, Inc. (HealthNow), administered Medicare Part B I and Durable Medical
Equipment Regional Carrier (DMERC) operations under cost reimbursement contracts with the
Centers for Medicare & Medicaid Services (CMS). The DMERC contractual relationship was
terminated on June 30, 2006. The effective closing date for the DMERC Medicare segment was
January 1,2007.

HealthNow began administering DMERC operations in September 2000. On January, 1,2002,
HealthNow created a new DMERC Medicare segment to separately account for its DMERC
operations. During the audit period, HealthNow's Part B Medicare segment allocated a portion
of its costs to the DMERC contract. For the purposes of this report, we will address only the
DMERC Medicare segment pension costs claimed by HealthNow for fiscal years (FY) 2000
through 2007.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the annual contributions that contractors make to their pension
ptans. To be allowable for Medicare reimbursement, pension costs must be (l) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with FY 1988, CMS incorporated specific segmentation language into Medicare
contracts that requires contractors to use either an allocation method or a separate calculation
method to idelftify and claim pension costs for Medicare reimbursement. Under the allocation
method, the contractor determines total plan CAS-based pension costs and allocates a share to
Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to detennine the allowability of pension costs that HealthNow claimed for
Medicare reimbursement for its DMERC Medicare segment for FYs 2000 through 2007.




l   We reviewed the allowability of Part B pension costs in a separate audit of HealthNow (A-07-1 1-00364).
                                                           1
 


Scope

We reviewed $1,422,223 of pension costs that HealthNow claimed for Medicare DMERC
reimbursement on its Final Administrative Cost Proposals (FACP) and termination vouchers for
FYs 2000 through 2007. Achieving our objective did not require that we review HealthNow’s
overall internal control structure. We limited our review to the internal controls related to the
pension costs claimed for Medicare reimbursement to ensure that the pension costs were
allocable in accordance with the CAS and allowable in accordance with the FAR.

We performed fieldwork at HealthNow’s office in Buffalo, New York.

Methodology

We reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit.
Additionally, we reviewed HealthNow’s FACPs and termination vouchers to identify the amount
of pension costs claimed for Medicare DMERC reimbursement for FYs 2000 through 2007. We
also determined the extent to which HealthNow funded CAS-based pension costs with
contributions to the pension trust fund and accumulated prepayment credits. We based our
calculations on separately computed CAS-based pension costs for the Part B Medicare segment,
the DMERC Medicare segment, and the “Other” segment. The CMS Office of the Actuary
calculated the allocable pension costs based on HealthNow’s historical practices and on the
results of our segmentation review (Review of Medicare Contractor’s Pension Segmentation
Requirements for the Durable Medical Equipment Regional Center Segment at HealthNow New
York, Inc., a Terminated Medicare Contractor, for the Period January 1, 2001, to
January 1, 2007, A-07-11-00366).

In our review, we used information that HealthNow’s actuarial consulting firm provided. The
information included assets, liabilities, normal costs, contributions, benefit payments, investment
earnings, and administrative expenses. We examined HealthNow’s accounting records, pension
plan documents, annual actuarial valuation reports, and Department of Labor/Internal Revenue
Service Forms 5500.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

HealthNow did not claim $111,258 of allowable Medicare pension costs on its FACPs for its
DMERC Medicare segment for FYs 2000 through 2007. The underclaim primarily occurred
because HealthNow did not claim pension costs for Medicare reimbursement for FY 2003. For
FYs 2000 through 2007, HealthNow claimed pension costs of $1,422,223 for Medicare


                                                 2

 
 
reimbursement for the DMERC Medicare segment; however, we determined that the allowable
CAS-based pension costs for this segment and during this period were $1,533,481.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: "The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413."

FAR 31.205-60) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

ALLOWABLE PENSION COSTS NOT CLAIMED

HealthNow did not claim $1 11 ,258 of pension costs that were allowable for Medicare
reimbursement for its DMERC Medicare segment for FYs 2000 through 2007.2 During that
period, HealthNow claimed pension costs of $1 ,422,223 for Medicare reimbursement. We
calculated allowable DMERC Medicare pension costs based on separately computed CAS-based
pension costs for the Part B Medicare segment,3 the DMERC Medicare segment, and the "Other"
segment according to CAS 412 and 413. Based on the terms of the Medicare contracts, the
allowable CAS-based pension costs for the DMERC Medicare segment for FYs 2000 through
2007 were $1,533,481.

The table on the following page compares allowable CAS-based pension costs with the pension
costs claimed on HealthNow's DMERC FACPs. Appendix A contains additional details on
allowable pension costs.




2 The allowable pension costs for FY 2007 were attributable to the pension costs for the period of July 1,2006,
through January 1, 2007.

3   During the audit period, the Part B Medicare segment allocated a portion of its costs to the DMERC contract.
                                                           3
    Comparison of Allowable Pension Costs and Claimed Pension Costs for the DMERC 

                                  Medicare Segment 





                    ..
                                    2000
                          _-_.. __..._-_._-_ ..... _---­
                                                                                           $7,372                       $0               $7,372
                                                                                                                                         _. - .. _-------_.­
                                    2001                                                   45,731               111,956                (66,225)
                                                                       +--~-----------+---- ---                ----
                                    2002                                               251,719                  366,620               (114,901)
                                                             ----~+-----------                                           ----+-----.­
                                    2003                                               302,766                            0             302,766
                 -,---­     ' --'---.'                     --------"-,,+,,-,-----------"''''
                                    2004                                               318,828                  340,089                (21,261)
                                                                                                  -t-',,·--­
                                    2005                                               323,851                  418,671                (94,820)
                                                                   · -+-------,--~,-"-,~-·,-~------"i---------------,------
                                                                                        182,011                 181 ,130                          881
                                                                                                   1--"-----­
                                                                                        101 ,203                   3,757                 97,446
                                       Total                                     $1,533,481                  $1,422,223 i             $111,258

This underc1aim occurred primarily because HealthNow did not claim pension costs for
Medicare reimbursement for FY 2003 for its DMERC Medicare segment. As a result,
HealthNow did not claim $111 ,25 8 of allowable Medicare DMERC pension costs.

RECOMMENDATION

We recommend that HealthNow revise its DMERC FACPs to claim the additional allowable
DMERC Medicare pension costs of $111 ,258.

AUDITEE COMMENTS

In written comments on our draft report, HealthNow agreed with our finding. HealthNowalso
stated that it will net this recommendation with other amolmts due to/from the Federal
Government during its global settlement of outstanding audits.

HealthNow's comments are included in their entirety as Appendix B.




4 HealthNow's FY 2006 DMERC FACP included only pension costs for a 9-month period (October 1,2005, through
June 30, 2006). For comparison purposes, we also calculated the allowable pension costs for FY 2006 for a 9-month
period (October 1,2005, through June 30, 2006).

5 HealthNow claimed pension costs for its DMERC Medicare segment on termination vouchers during the period of
July 1,2006, through January 1,2007, the effective closing date for the DMERC Medicare segment. For
comparison purposes, we also calculated the allowable pension costs for a 6-month period (July through
January 1,2007).

                                                                                        4
 




    APPENDIXES 

 

 




          
 
                                                                                                                             Page 1 of 4

                                    APPENDIX A: ALLOWABLE DURABLE MEDICAL EQUIPMENT 

                                        REGIONAL CARRIER MEDICARE PENSION COSTS


                                              FOR HEALTHNOW NEW YORK, INC.,


                                             FOR FISCAL YEARS 2000 THROUGH 2007




                                                                                        Part B       DMERC       Total Medicare
                                                          Total          “Other”       Medicare      Medicare       DMERC
     Date                      Description               Company         Segment       Segment       Segment      Pension Costs
                                                                                                        1/
     2000         Contributions                     2/ $9,142,603        $8,843,116      $299,487           $0
    7.75%         Discount for Interest             3/   ($534,685)       ($517,170)     ($17,515)          $0
January 1, 2000   Present Value Contributions       4/ $8,607,918        $8,325,946      $281,972           $0
                  Prepayment Credit Applied         5/ $1,634,113        $1,459,779      $174,334           $0
                  Present Value of Funding          6/ $10,242,031       $9,785,725      $456,306           $0

January 1, 2000   CAS Funding Target                7/    $4,277,167     $3,820,861      $456,306           $0
                  Percentage Funded                 8/                      100.00%       100.00%        0.00%
                  Funded Pension Cost               9/                   $3,820,861      $456,306           $0
                  Allowable Interest               10/                     $129,614       $15,479           $0
                  Allocable Pension Cost           11/                   $3,950,475      $471,785           $0
                  DMERC Medicare LOB* Percentage   12/                        0.09%         1.33%      100.00%
                  PY Allowable Pension Cost        13/                       $3,555        $6,275           $0

     2000         FY Allowable Pension Cost        14/                       $2,666        $4,706           $0          $7,372

     2001         Contributions                           $8,719,704     $8,719,704            $0           $0
    7.75%         Discount for Interest                    ($530,273)     ($530,273)           $0           $0
January 1, 2001   Present Value Contributions             $8,189,431     $8,189,431            $0           $0
                  Prepayment Credit Applied               $3,908,014     $3,589,796      $318,218           $0
                  Present Value of Funding               $12,097,445    $11,779,227      $318,218           $0

January 1, 2001   CAS Funding Target                      $3,908,014     $3,589,796      $318,218           $0
                  Percentage Funded                                         100.00%       100.00%        0.00%
                  Funded Pension Cost                                    $3,589,796      $318,218           $0
                  Allowable Interest                                             $0            $0           $0
                  Allocable Pension Cost                                 $3,589,796      $318,218           $0
                  DMERC Medicare LOB* Percentage                              0.86%         8.43%       99.54%
                  PY Allowable Pension Cost                                 $30,872       $26,826           $0

     2001         FY Allowable Pension Cost                                $24,043        $21,688           $0         $45,731

     2002         Contributions                           $7,930,000     $7,930,000            $0           $0
    7.75%         Discount for Interest                    ($570,371)     ($570,371)           $0           $0
January 1, 2002   Present Value Contributions             $7,359,629     $7,359,629            $0           $0
                  Prepayment Credit Applied               $4,758,155     $4,025,811      $489,141     $243,203
                  Present Value of Funding               $12,117,784    $11,385,440      $489,141     $243,203

January 1, 2002   CAS Funding Target                      $4,758,155     $4,025,811      $489,141     $243,203
                  Percentage Funded                                         100.00%       100.00%      100.00%
                  Funded Pension Cost                                    $4,025,811      $489,141     $243,203
                  Allowable Interest                                             $0            $0           $0
                  Allocable Pension Cost                                 $4,025,811      $489,141     $243,203
                  DMERC Medicare LOB* Percentage                              0.92%         8.46%       97.85%
                  PY Allowable Pension Cost                                 $37,037       $41,381     $237,974

     2002         FY Allowable Pension Cost                                $35,496        $37,742     $178,481        $251,719
                                                                                                                      Page 2 of 4




                                                                                  Part B      DMERC       Total Medicare
                                                    Total          “Other”       Medicare     Medicare    Part B Pension
     Date                      Description         Company         Segment       Segment      Segment          Costs

     2003         Contributions                     $6,850,000     $6,850,000            $0          $0
    7.75%         Discount for Interest              ($492,691)     ($492,691)           $0          $0
January 1, 2003   Present Value Contributions       $6,357,309     $6,357,309            $0          $0
                  Prepayment Credit Applied         $4,596,186     $3,920,998      $458,820    $216,368
                  Present Value of Funding         $10,953,495    $10,278,307      $458,820    $216,368

January 1, 2003   CAS Funding Target                $4,596,186     $3,920,998      $458,820    $216,368
                  Percentage Funded                                   100.00%       100.00%     100.00%
                  Funded Pension Cost                              $3,920,998      $458,820    $216,368
                  Allowable Interest                                       $0            $0          $0
                  Allocable Pension Cost                           $3,920,998      $458,820    $216,368
                  DMERC Medicare LOB* Percentage                        0.81%        11.56%      98.64%
                  PY Allowable Pension Cost                           $31,760       $53,040    $213,425

     2003         FY Allowable Pension Cost                          $33,079        $50,125    $219,562        $302,766

     2004         Contributions                     $6,750,000     $6,750,000            $0          $0
    7.75%         Discount for Interest              ($485,499)     ($485,499)           $0          $0
January 1, 2004   Present Value Contributions       $6,264,501     $6,264,501            $0          $0
                  Prepayment Credit Applied         $5,375,975     $4,561,936      $596,090    $217,949
                  Present Value of Funding         $11,640,476    $10,826,437      $596,090    $217,949

January 1, 2004   CAS Funding Target                $5,375,975     $4,561,936      $596,090    $217,949
                  Percentage Funded                                   100.00%       100.00%     100.00%
                  Funded Pension Cost                              $4,561,936      $596,090    $217,949
                  Allowable Interest                                       $0            $0          $0
                  Allocable Pension Cost                           $4,561,936      $596,090    $217,949
                  DMERC Medicare LOB* Percentage                        0.77%        12.68%      98.64%
                  PY Allowable Pension Cost                           $35,127       $75,584    $214,985

     2004         FY Allowable Pension Cost                          $34,285        $69,948    $214,595        $318,828

     2005         Contributions                     $6,600,000     $6,600,000            $0          $0
    8.00%         Discount for Interest              ($488,889)     ($488,889)           $0          $0
January 1, 2005   Present Value Contributions       $6,111,111     $6,111,111            $0          $0
                  Prepayment Credit Applied         $4,915,529     $4,187,696      $520,848    $206,985
                  Present Value of Funding         $11,026,640    $10,298,807      $520,848    $206,985

January 1, 2005   CAS Funding Target                $4,915,529     $4,187,696      $520,848    $206,985
                  Percentage Funded                                   100.00%       100.00%     100.00%
                  Funded Pension Cost                              $4,187,696      $520,848    $206,985
                  Allowable Interest                                       $0            $0          $0
                  Allocable Pension Cost                           $4,187,696      $520,848    $206,985
                  DMERC Medicare LOB* Percentage                        0.81%        16.26%      98.86%
                  PY Allowable Pension Cost                           $33,920       $84,690    $204,625

     2005         FY Allowable Pension Cost                          $34,222        $82,414    $207,215        $323,851
                                                                                                                                                               Page 3 of 4




                                                                                                              Part B            DMERC           Total Medicare
                                                                         Total             “Other”           Medicare           Medicare        Part B Pension
          Date                        Description                       Company            Segment           Segment            Segment              Costs

         2006            Contributions                                           $0                $0                  $0                $0
        8.00%            Discount for Interest                                   $0                $0                  $0                $0
    January 1, 2006      Present Value Contributions                             $0                $0                  $0                $0
                         Prepayment Credit Applied                       $4,544,764        $3,964,991            $471,123          $108,650
                         Present Value of Funding                        $4,544,764        $3,964,991            $471,123          $108,650

    January 1, 2006      CAS Funding Target                              $4,544,764        $3,964,991            $471,123          $108,650
                         Percentage Funded                                                    100.00%             100.00%           100.00%
                         Funded Pension Cost                                               $3,964,991            $471,123          $108,650
                         Allowable Interest                                                        $0                  $0                $0
                         Allocable Pension Cost                                            $3,964,991            $471,123          $108,650
                         DMERC Medicare LOB* Percentage                                         0.65%              14.43%           100.00%
                         PY Allowable Pension Cost                                            $25,772             $67,983          $108,650

     June 30, 2006       Allowable Pension Cost                   15/                         $21,366             $55,164          $105,481           $182,011

    January 1, 2007      Allowable Pension Cost                   16/                         $12,886             $33,992           $54,325           $101,203


   * Line of business.

ENDNOTES

 1/ Durable Medical Equipment Regional Carrier

 2/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The contributions included
    deposits made during the plan year (PY) and accrued contributions deposited after the end of the PY but within the time allowed for filing tax returns. We
    determined the contributions allocated to both Medicare segments during the pension segmentation review (A-07-11-00366). The amounts shown for the
    “Other” segment represent the difference between the Total Company and the Part B and DMERC Medicare segments.

 3/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the contributions back to
    their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference between the present value of contributions (at
    the valuation interest rate) and actual contribution amounts

 4/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the PY. For purposes of this
    Appendix, we deemed deposits made after the end of the PY to have been made on the final day of the PY, consistent with the method mandated by the
    Employee Retirement Income Security Act

 5/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is created when contributions,
    plus interest, exceed the end-of-year Cost Accounting Standards (CAS) funding target. A prepayment credit is carried forward, with interest, to fund
    future CAS pension costs.

 6/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding that is available to cover
    the CAS funding target measured at the first day of the PY.

 7/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the Federal Acquisition Regulation (FAR
    31.205-6(j)(2)(i).

 8/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the PY. Because any funding in excess of the
    CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(1) (as amended), the funded ratio may not exceed 100 percent.
    We computed the percentage funded as the present value of funding divided by the CAS funding target. For purposes of illustration, the percentage of
    funding has been rounded to four decimals.
                                                                                                                                                            Page 4 of 4



 9/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

10/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same proportion as the interest on contributions bears
    to the present value of contributions. However, we limited the interest in accordance with FAR 31.205-6(j)(2)(iii), which does not permit the allowable
    interest to exceed the interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal installments deposited
    within 30 days after the end of the quarter.

11/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.

12/ We calculated allowable pension costs for the Part B Medicare segment, the DMERC Medicare segment, and “Other” segment based on the Medicare
    DMERC line of business (LOB) percentage of each segment. We determined the Medicare DMERC LOB percentages based upon information provided
    by HealthNow. Our LOB percentages are determined by segment for costs allocated to the Medicare DMERC Title 18 contracts.

13/ We computed the PY allowable pension cost as the PY allocable pension cost multiplied by the calendar year Medicare DMERC LOB percentage.

14/ We converted the PY allowable pension costs to a fiscal year (October 1 through September 30) allowable pension cost. Pursuant to CAS 412 and 413, the
    total Medicare DMERC allowable pension costs charged to the Medicare contracts consisted of the DMERC Medicare segment’s direct pension costs plus
    the Part B Medicare and “Other” segment pension costs attributable to indirect Medicare DMERC segment operations.

15/ The DMERC contractual relationship was terminated on June 30, 2006. Therefore, we computed allowable pension costs for October 1, 2005, through
    June 30, 2006, by taking 1/4 of the PY 2005 pension costs plus 6/12 of the PY 2006 pension costs.

16/ The effective closing date for the DMERC Medicare segment was January 1, 2007. Therefore, we computed the allowable pension costs for the DMERC
    Medicare segment for June 30, 2006, through January 1, 2007, by taking 6/12 of the PY 2006 allowable pension costs.
                                   APPENDIX B: AUDITEE COMMENTS



                 hNOWS'
257 West Genesee Street · Buffalo. New York 14202·2657




                                                                                            January 30, 2012

       Mr. Patrick J. Cogley
       Regional Inspector General, Office of Audit Services
       Region VII
       601 East 12th Street
       Room 0429
       Kansas City, Missouri 64106

       Re: Report Number: A-07-11-00367

       Dear Mr. Cogley:

       This letter is in response to the U.S. Department of Health & Human Services, Office of Inspector
       General, Office of Audit Services' draft report entitled "REVIEW OF PENSION COST CLAIMED FOR
       MEDICARE DURABLE MEDICAL EQUIPMENT REGIONAL CARRIER REIMBURSEMENT BY HEALTHNOW
       NEW YORK INC., FOR FISCAL YEARS 2000 THROUGH 2007" HealthNow New York Inc. (HealthNow)
       has reviewed the draft report in conjunction with our actuaries at Hooker and Holcombe, Inc.
       Following are comments regarding the specific findings.

            •     HealthNow agrees with this finding stated in the draft audit report to claim an additional
                  allowable DMERC Medicare pension cost of $111,258. The additional allowable costs
                  resulted because HealthNow did not claim $111,258 of allowable Medicare pension costs on
                  its FACP for FYs 2000 through 2007.

       We understand there will be a global settlement of all HealthNow's outstanding audits and we will
       net this recommendation with other amounts due to/from the Federal Government at that time.

       HealthNow would like to thank the audit team for their professionalism and recognition of the
       ongoing operation during the audit. I am also grateful to Jenenne Tambke for the extension to
       respond to this draft report.

       If you have any questions, please contact me at 716.887.6922.

      Si

                0y, /1- U
        zanr e M. Gannon
                                  1.1
                                /l..       (}    I       ,rv-'f,,--
      Ex~t ive Director &    , Medicare Operation
      MedUS Services, LLC
      HealthNow New York Inc.

      CC: Carmen L. Snell, Esq.
          Christopher Leardini
          Catherine M. Campbell
